   JOINT HEARING BEFORE THE COMMITTEES OF THE

              UNITED STATES SENATE


                      AND


     UNITED STATES HOUSE OF REPRESENTATIVES

                   MAY 14, 2002




   “THE STRATEGIC PLANS AND BUDGET OF THE IRS”



            STATEMENT FOR THE RECORD



                 DAVID C. WILLIAMS
               INSPECTOR GENERAL
TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
Mr. Chairman and Members of the Committees, I appreciate the opportunity to
appear before you today to discuss the progress made by the Internal Revenue
Service (IRS) in complying with the IRS Restructuring and Reform Act of 1998
(RRA 98). My comments will also address several significant challenges facing
the IRS including its ability to modernize computer systems, improve customer
service and increase productivity.

The mission of the IRS is critical. It processes over 233 million tax returns and
collects over $2 trillion annually to fund the nation’s government. The IRS also
implements tax law changes and must enforce tax laws to ensure that the
taxpaying public pays the proper amount of tax. To accomplish these
responsibilities, the IRS relies on extensive computer-processed data.
Substantial damage to IRS computer systems security, and employee safety or
security can cause disruption in tax administration and adversely affect the
United States economy.

In 1998, the IRS undertook a course of dramatic change. The changes were
prompted both by issues the Congress identified in a series of hearings and
through opportunities imagined by the new Commissioner and the Secretary of
Treasury who worked closely with key congressional committees. The changes
consisted of reforms, fundamental organizational design alterations and a
desperately needed modernization plan for the IRS’ outmoded computer
systems. The organizational design plan would take the IRS from an old-line
governmental hierarchy to a modern customer-focused organization. The
reforms were designed to address taxpayer rights and to strike at abuses. The
business modernization was to catch up with technology and to support the
emerging organization in an imaginative fashion.

These important and fundamental changes faced serious challenges. The
culture of the organization, for good and for bad reasons, was very resistant to
sudden change. Secondly, decisive changes needed to occur despite the fact
that the organization was nearly blinded by a lack of management information
systems, meaningful research capacity or performance metrics. The early
course of the changes, to date, has had some success. A comprehensive
strategy for the future was constructed and a broad fronted implementation plan
was set in motion. Through this effort, problems were honestly identified and
solutions were constructed. Also, credibility was restored and a positive and
constructive relationship was established between the agency and the Congress,
largely as a result of the efforts and leadership of the Commissioner. The IRS
succeeded in achieving an unbroken record of successful filing seasons, despite
a growing workload and fewer resources. However, the changes did not repair
all of the problems and some of the changes have occurred at an agonizingly
slow pace.




                                         2
The IRS has made substantial progress on one front. TIGTA audits showed that
all four IRS business units substantially completed the five critical elements
needed for putting into effect (or standing up) their respective organizational
structures. Although the IRS has reorganized structurally, additional actions are
needed in the areas of staffing and modernization initiatives. For example, the
Government Entities (GE) organization, although officially created in December
1999, is still trying to reach its projected optimal staffing levels. Responsible IRS
executives have expressed concerns with the resource levels and acknowledged
that the full implementation and establishment of the GE organization is being
delayed through Fiscal Year (FY) 2003. As a result of the resource limitations,
the GE organization is still in the process of identifying its customers and their
unique customer service issues. The Taxpayer Education and Communication
organization within the Small Business/Self-Employed operating division is also
only at two-thirds of its projected staffing level.
TIGTA has also expressed concerns as to the IRS’ ability to address taxpayer
issues involving more than one operating unit. During FY 2001, TIGTA reported
the need for the IRS to coordinate among its functional areas to implement the
IRS-wide workforce-planning model that would identify strategic workforce
requirements and be used in developing the strategic plan and budget. TIGTA
also identified other reorganization/human resource issues including program
managers that did not have direct control over field employees in another IRS
functional area. For example, the lack of direct workload control in the Innocent
Spouse Program contributed to significant inventory backlog and the possibility of
misdirected program resources, inaccurate measurement of program
accomplishments and reporting of inaccurate program results.


Filing Season

Many programs, activities and resources have to be planned and managed
effectively for the IRS filing season to be successful. For the 2002 filing season,
TIGTA determined that the IRS appropriately addressed significant issues prior
to commencement of the filing season. Specifically, tax law changes emanating
from the Economic Growth and Tax Relief Reconciliation Act of 2001 and the
Taxpayer Relief Act of 1997 were implemented. This included updating
computer systems, revising the Internal Revenue Manual (IRM) and preparing
training materials for employees.
IRS data show that, overall, the 2002 filing season has been successful.
Through April 19, 2002, the IRS received approximately 118 million returns and
processed approximately 89 million tax returns. Approximately 46 million of
these returns were filed electronically, up from approximately 40 million electronic
returns received during last year’s filing season. The average dollar amount of
refunds issued was $1,937 up from an average refund amount of $1,714 last
year. In addition, the number of refunds deposited directly into taxpayers’
accounts increased by nearly 17 percent from this same time last year.


                                          3
Business Systems Modernization
The IRS has made progress in modernizing its systems, but at a much slower
pace than originally planned. For example, some benefits to taxpayers have
been delivered, such as improvements in the capacity to handle and route
taxpayers’ telephone calls. In addition, the IRS has continued to increase the
level of detail in its Enterprise Architecture blueprint, which will help guide the
modernization as it progresses. However, most modernization projects have
experienced cost and schedule overruns and have delivered less than expected.
These setbacks are particularly threatening in light of the fact that so many other
reforms are dependent on modernized computer systems.

TIGTA has seen some improvements in the management of systems
modernization, particularly in the recognition of deficiencies that need to be
addressed, and in the formulation of plans or steps to address the deficiencies.
The IRS Business System Modernization Office has taken steps to improve
processes such as configuration management, risk management, schedule and
cost estimation, requirements management, and quality assurance. Holding the
PRIME contractor accountable will be another critical success factor in the
modernization effort. To that end, the IRS is becoming more proactive in
requiring certain types of skills at the highest levels in the PRIME organization.
This essential step is coming late in the overall business modernization initiative
and the Chief Information Officer has had to take remedial action.

TIGTA has not yet seen major improvements in the actual implementation of
these actions at the project level. Lessons learned in previous projects are not
being consistently applied to other projects that are experiencing the same
issues or problems. It appears that the project teams are still focused on trying
to meet promised delivery dates rather than implementing improvements in the
development processes. The IRS will have invested approximately $1 billion in
systems modernization by the end of 2002. Several major deliverables are
planned for later this year or early next year, including the first iteration of
replacing the antiquated taxpayer account master file. If weaknesses in
management disciplines are not overcome in the next several months, these
deliverables could be in jeopardy.

Security of the IRS

The terrorist attacks on September 11, 2001, and the subsequent anthrax scares
highlighted new vulnerabilities in many businesses and government agencies.
Although the IRS has traditionally been security conscious because of the very
nature of its work, security of IRS employees, facilities, and information systems
is now considered a major challenge facing IRS management.




                                         4
Employees and Facilities - The IRS has long recognized that physical threats to
its employees and infrastructure could be detrimental to tax administration and
had developed disaster recovery plans. However, these plans generally
addressed the risk of only one site shutting down and did not address the
potential loss of key personnel. The terrorist attacks of September 11 and
subsequent anthrax hoax mailings and bomb threats to IRS facilities caused the
IRS to realize that multiple sites could go down simultaneously. Since the
terrorist attacks of September 11, TIGTA has investigated a total of 56 incidents
involving suspicious biological or chemical substances identified or received at
an IRS lockbox or facility. TIGTA special agents have arrested 2 individuals in
separate cases involving anthrax hoax mailings to IRS facilities.

Since September 11, the IRS has worked to gain an understanding of, and plan
for, these new risks. A new high-level committee headed by the Deputy
Commissioner has been convened to focus on security issues. The committee
took swift actions to mitigate the threat of bio-terrorism during the current tax-
filing season at its major processing centers. For example, mail opening and
sorting processes were relocated away from IRS main facilities, security
screening of persons was heightened, and vehicles were inspected more
thoroughly. In addition to these short-term actions, the IRS is developing plans
to combat terrorism and maintain continuity of operations going forward.
Completing these actions is important because the IRS is the nation’s primary
revenue collector and any disruption of collection activities could have a
detrimental effect on the economy.
TIGTA continues to participate in IRS security efforts to combat terrorism. TIGTA
meets daily with the Federal Bureau of Investigation (FBI) to stay abreast of new
threats and is acting as the primary conduit of threat information to the IRS.
Although it received no supplemental funding to do so, TIGTA participates in
dozens of FBI Joint Terrorism Task Forces around the country. TIGTA has also
created a headquarters unit to coordinate investigations and to be a centralized
repository and dissemination point of threat information to the IRS. TIGTA, and
its predecessor agency, the IRS Inspection Service, has a 50-year history of
investigating threats to the IRS and its employees. Since October 1998,
TIGTA’s Office of Investigations (OI) has completed an average of 675
investigations each year involving written or oral threats directed at the IRS or its
employees. For example, five individuals were recently charged in connection
with an arson at an IRS office. TIGTA’s Office of Audit is also working in
coordination with the General Accounting Office to provide a comprehensive
evaluation of IRS security initiatives. Interim briefings are being provided to
interested congressional groups.



Information Systems – Another consequence of the organizational redesign has
been that computer security has often taken a back seat to other priorities and
has left the quest for adequate security levels a distant one. TIGTA’s recent


                                         5
audits and investigations indicate that, despite some impressive recent progress,
the IRS is still vulnerable to outside hackers and to internal abuses. TIGTA
identified significant weaknesses in controls over external access to Internet
gateways, and weaknesses in the IRS’ network operating system controls,
physical security, and systems access privileges. In addition, 68 percent of the
IRS sensitive information systems have not been certified as meeting the
minimum security standards outlined by the Department of Treasury.
Since October 1997, TIGTA’s OI has investigated an average of 425 cases per
year involving IRS employees who have allegedly improperly accessed
confidential taxpayer information. For the same period, 78 IRS employees have
been prosecuted and another 515 employees have been removed or resigned for
misusing taxpayer information. Unauthorized accesses to tax information
(UNAX) violations continue despite training and knowledge of criminal penalties.
TIGTA attributes these computer security weaknesses to:

   ¾ Policies and procedures to address most aspects of security have often
     been ineffectively implemented.

   ¾ A reluctance of functional managers to take responsibility for the security
     of the systems they operate. The CIO’s Office of Security has primary
     accountability, contrary to Office of Management and Budget policy and
     law, which states that functional managers are responsible for the security
     of the systems they operate.

   ¾ Many IRS employees with key security responsibilities do not have the
     requisite knowledge and skills.

   ¾ Many IRS employees are not aware of security risks and their attendant
     responsibilities. For example, posing as Help Desk employees, we
     telephonically contacted 100 employees and asked them to temporarily
     change their password to one that we had created. Of the 100 employees
     contacted, 71 agreed to compromise their password. This means that
     rank and file IRS employees and managers are potentially the weakest
     link in protecting the security of IRS computer systems and data.

Although aggressive actions discussed previously have been taken or initiated to
address the security risks posed by terrorism, the IRS needs to address the
weaknesses cited above to reduce the risk of data loss, theft or unauthorized
disclosure of taxpayer information.




Tax Compliance Efforts



                                        6
The IRS’ goal of providing world-class service to taxpayers hinges on the theory
that, if the IRS provides the right mix of education, support, and up-front problem
solving to taxpayers, the overall rate of voluntary compliance with the tax laws
will increase. The compliance program (examining tax returns and collecting tax
liabilities) would then address those taxpayers who purposefully did not comply.
The challenge to the IRS management is to establish a tax compliance program
that identifies those citizens who do not meet their tax obligations, either by not
paying the correct amount of tax or not filing proper tax returns.

Enforcement actions against individuals and businesses that purposefully
conceal tax liabilities or even refuse to submit tax returns have fallen dramatically
low, despite concerns that tax cheating remains at high levels. The following
chart exhibits the fact that, since FY 1996, the level of IRS enforcement activities
has significantly declined.




                                                  Overall Decline
                   Enforcement Action            FY 1996 - FY 2001
                Face-to-Face Audits                     72%
                Correspondence Audits                   56%
                Liens                                   43%
                Levies                                  86%
The overall     Seizures                                98%              decline in
enforcement actions has been primarily attributed to a long-term reduction in
enforcement staffing, to redirection of resources to customer service functions
during the filing season, a decline in direct examination time, and to IRS
employees’ concerns over the mandatory termination provision in Section 1203
of RRA 98.

IRS management and many stakeholders have been concerned about the
decline in enforcement activities. However, the IRS has not conducted Taxpayer
Compliance Measurement Program audits since 1988. Therefore, it currently
has no reliable method to measure voluntary compliance or the effect that
increased customer service and diversion of compliance resources are having on
voluntary compliance. TIGTA believes that the planned National Research
Program is a much-needed first step for providing the information necessary to
gauge compliance levels and direct IRS compliance resources towards areas
where attention is most needed.

Customer Service
Customer service, especially in the area of tax law guidance, needs major
improvement. When taxpayers have a problem with their account or need
assistance in interpreting tax laws they have two primary vehicles for contacting


                                          7
the IRS. They can speak with an IRS representative either in person at one of
the IRS’ 414 Taxpayer Assistance Centers (TAC) or over the telephone. During
this year, TIGTA assessed the service provided by representatives at the IRS’
TACs and through its Toll-Free Telephone System. Customer service continues
to be below expectations and the IRS still has several challenges ahead before it
reaches the world-class level of service it strives to deliver. During our review of
the TACs, TIGTA personnel visited 77 centers and posed 314 questions to IRS
representatives. Results of our review are synopsized in the following chart:


                                              Response Rate            Percentage
          Correct Answers                          158                     50
          Incorrect Answers                         91                     29
          No Answer Provided –
          Referred to Publication In
          Lieu of a Response                           63                    20
          Service Denied                               2                     <1


The IRS’ performance on the Toll-Free side was relatively better. Our reviewers
performed on-line monitoring of 736 taxpayer calls and determined that the IRS
representative correctly answered the taxpayer’s question in 78 percent of the
cases.

IRS Performance Measures
In the past year, TIGTA has conducted reviews of the IRS’ business results
measures and found that the IRS’ critical performance measures do not address
all of the major components of tax administration. The IRS’ performance
measures were selected due to their direct relation to the taxpaying public. This
emphasis by the IRS on serving the taxpayer has resulted in a December 2001
customer satisfaction rating report which showed that the IRS’ customer
satisfaction rating has increased by 22 percentage points over the last 2 years.
While we do not discount the IRS’ emphasis on customer satisfaction, the IRS
should also continue to develop its balanced measures program to ensure that its
critical performance measures cover all of the major components of tax
administration. For example, the IRS breaks down its budget by appropriation1
and within some of the appropriations by budget activity. We found that three of
the five appropriations do not have performance measures linking results to the
money requested. Those appropriations are Information Systems, Business
System Modernization (BSM), and Earned Income Tax Credit. In the remaining
two appropriations, there were no performance measures for three of the six
budget activities within those appropriations. Those budget activities are Shared

1
 The five appropriations are Processing, Assistance, and Management; Tax Law Enforcement; Information
Systems; Business Systems Modernization; and Earned Income Tax Credit Compliance.


                                                 8
Services Support, General Management and Administration, and Research. The
funds budgeted to these areas should have performance measures to justify the
budgeted amount or the costs should be associated with the program that it
benefits, thus giving a truer cost of that particular program.
Furthermore, performance measures that the IRS reports to the Congress do not
address 5 of the 10 strategies listed in the IRS’ FY 2000-2005 Strategic Plan.
For example, two strategies with which we could not link critical performance
measures were “Deal Effectively with the Global Economy” and “Recruit,
Develop, Retain a Quality Workforce.” The IRS is in the process of developing
measures that would address its strategy relating to the global economy. The
lack of performance measures prevents the IRS from reporting its overall level of
success in achieving its mission.


The IRS Restructuring and Reform Act of 1998 (RRA 98)

Due to the comprehensive nature of this reform law, the IRS has dedicated
significant attention and resources toward implementing the RRA 98 provisions.
The RRA 98 included fundamental changes to tax law procedures and 71
provisions that increase or help protect taxpayers’ rights. The IRS has taken
several actions to improve compliance with these provisions. For example, in
some instances the IRS added a higher level of managerial review of work,
implemented new computer controls to prevent certain violations from occurring,
and provided additional training and guidance to help employees and managers
understand the requirements of the provisions. The RRA 98 required TIGTA to
review 10 of the 71 taxpayer rights provisions, as well as 2 other taxpayer rights
provisions in prior legislation. TIGTA is currently in the fourth review cycle
assessing the mandatory RRA 98 provisions. In addition to the mandatory
reviews, TIGTA has reviewed other taxpayer rights provisions within the RRA 98.
The IRS’ compliance with the RRA 98 provisions varies from achieving full
compliance to significant non-compliance. TIGTA has reported that the IRS has
fully implemented three taxpayer rights provisions - Mitigation of Failure to
Deposit Penalty, Seizure of Property and Taxpayer Advocate-Hardships. The
IRS is generally compliant with two other provisions – Illegal Tax Protestor
Designation and Collection Due Process for Liens and Levies.

Additionally, the IRS needs to improve its compliance with the RRA 98 provisions
by completing actions recommended in TIGTA audit reports issued in FY’s 2000,
2001 and 2002. We found the IRS is not yet compliant with the following
taxpayer rights’ provisions:

   ¾ Notice of Levy – The systemic control designed to ensure that taxpayers
     receive the required 30-day notification before levy can be circumvented.
     All revenue officers have the capability to revise the final notice date. As a
     result, the IRS cannot be certain that all taxpayers were provided the
     required 30-day notice before levy actions were taken.


                                        9
¾ Restrictions on the use of enforcement statistics to evaluate employees –
  TIGTA determined that the performance or related supervisory
  documentation could contain violations of RRA 98 Section 1204 (a) for an
  estimated 452 enforcement employees in the continental United States,
  and violations of RRA 98 Section 1204 (b) for an estimated 3,170
  enforcement employees, out of an estimated population of 45,300
  enforcement employees in the continental United States.

¾ Notice of Lien – An estimated 11,500 lien notifications, out of a population
  of 137,258 lien notices, were not mailed to the taxpayer, the taxpayer’s
  spouse, or to the taxpayer’s business partners; or were not mailed to the
  taxpayer’s or spouse’s last known address. Taxpayer rights could be
  potentially affected because the taxpayer not receiving a notice or
  receiving a late notice might not be aware of the right to appeal or could
  have less than the 30-day period allowed by the law to request a hearing.

¾ Collection Statute of Limitations – TIGTA identified 16 taxpayer accounts
  where the IRS obtained collection statute extensions without also securing
  the related installment agreement or levy release as required by law. In
  addition, the IRS is at risk of writing off approximately 7,300 taxpayer
  accounts with $291 million in tax liabilities because of incorrect statute
  calculations or not following internal procedures.

¾ Assessment Statute of Limitations – An estimated 460 taxpayer accounts
  nationwide do not include documentation that the IRS advised taxpayers
  of their rights regarding assessment statute extensions, out of an
  estimated population of 9,800 taxpayers, for the period April to September
  2000.

¾ Innocent Spouse – The IRS is effectively educating taxpayers about the
  requirements that need to be met to qualify for Innocent Spouse relief.
  The IRS also has made significant improvements in the Innocent Spouse
  Program at the Cincinnati site; however, problems continued to exist in
  managing the resources that evaluate the claims assigned to the field.
  Additionally, the receipt of open claims continues to grow and old claims
  remain in inventory for extended periods of time.

¾ Offer in Compromise Determinations – The IRS has taken several steps to
  expand access to the offer in compromise program and has complied with
  the RRA 98 provision. However, the IRS could do more to educate
  taxpayers about the verification process used to evaluate an offer, provide
  additional flexibility regarding the consideration of taxpayers’ equity in
  assets, revise guidelines to encourage taxpayer access to the appeal
  process, and establish a management information system to monitor




                                    10
           offers accepted based on special circumstances and on the independent
           administrative review process.

      ¾ Denials of Requests for Information Under the Freedom of Information Act
        – TIGTA identified an estimated 615 responses to Freedom of Information
        Act or Privacy Act requests where information was improperly withheld,
        out of 5,725 requests for information that were denied in whole or part, or
        where the IRS replied that responsive records were not available. There
        was also an estimated 733 responses to Internal Revenue Code (I.R.C.)
        Section 6103 requests where information was improperly withheld out of
        an estimated population of 10,539 requests that were denied or partially
        denied or requesters were told that records could not be located.

      ¾ Dual Notices for Joint Filers – Separate notices were not being sent to
        joint filers as required by the law.

      ¾ Uniform Asset Disposal Mechanism – This provision was effective
        July 22, 2000. In TIGTA’s first review of this provision, there were three
        seizure cases in which it was not clear whether revenue officers
        participated in prohibited activities during the sale of the property.

Prior to July 2000, IRS management became concerned that not all requirements
could be met by the effective dates imposed by the RRA 98 and informed the
Congress that additional time would be needed to implement three provisions.
The Congress extended the deadlines for these three requirements with the
passage of the Community Renewal Tax Relief Act of 2000.2 For one of the
three provisions, Annual Installment Agreement Statements, the deadline was
extended to September 1, 2001, to provide annual statements to taxpayers with
active installment agreements. The IRS has indicated it is now in compliance
with this provision. TIGTA has not yet validated the IRS’ compliance with this
provision.

Additional actions are still needed before two provisions will be fully
implemented. These two provisions are:

      ¾ Notice of Penalties Imposed – Deadline extended to July 1, 2003, for
        providing the detailed notice. TIGTA reported that the IRS computer
        programming was not in place to send notices to 8.7 million taxpayers.
      ¾ Notice of Interest Assessed – Deadline extended to July 1, 2003, for
        providing the detailed notice. TIGTA reported that the IRS computer
        programming was not in place to send notices to the same 8.7 million
        taxpayers that also had penalties imposed.



2
    Pub. L. 106-554 (December 21, 2000).


                                           11
Finally, because the IRS did not have management information systems to track
the specific cases, neither TIGTA nor the IRS could evaluate the IRS’ compliance
with the following four provisions.

      ¾ Restrictions on directly contacting taxpayers instead of authorized
        representatives.
      ¾ Taxpayer complaints.
      ¾ Separated or divorced joint filer requests.
      ¾ Fair Debt Collection Practices Act (FDCPA) Violations – the IRS does
        track potential FDCPA violations on its computer systems; however,
        we determined that data on one system may not always be complete
        and accurate.

Section 1203 Violations
In addition to our audit responsibilities, the RRA 98 charges TIGTA with
investigating Section 1203 violations. Section 1203 provides that the IRS
Commissioner shall terminate the employment of any IRS employee found guilty
of misconduct as defined by ten acts or omissions. TIGTA assists in the
protection of taxpayers and their rights by investigating allegations of misconduct
by IRS employees. Since the passage of Section 1203, approximately 5,000
complaints involving an allegation of a Section 1203 violation have been
received.

Shortly after the passage of the RRA 98, there was initial uncertainty in what the
public and IRS employees thought constituted a true violation of Section 1203.
Since February 1999, TIGTA has seen a high of 94 complaints in August 1999 to
only 12 complaints received in February 2002. This is a significant decline and is
credited, in part, to:

      ¾ Public and employee education in Section 1203;
      ¾ The IRS’ aggressive response to implement Section 1203 legislation;
        and
      ¾ Decline in IRS enforcement activity.

The vast majority of Section 1203 complaints received by TIGTA have alleged an
IRS employee violated a provision of the IRM or I.R.C. in order to retaliate
against, or harass someone. The second category, by volume, involves
constitutional and civil rights/Equal Employment Opportunity (EEO) violations.
The IRS receives and adjudicates numerous Section 1203 allegations where no
TIGTA investigation is needed. Where TIGTA involvement is warranted, our
focus is to determine the intent. As of February 2002, the IRS has notified us
that 54 employees have been fired and 106 employees have resigned or retired
as a result of TIGTA and IRS investigations.


                                        12
TIGTA and the IRS are working together to re-engineer the 1203 process.
Beginning March 1, 2002, a streamlined process was implemented which will
enable an early determination to be made in order to separate the valid 1203
allegations from those that are not. As a result, TIGTA will be able to devote its
resources to the investigation of bona fide 1203 allegations and other
misconduct.

In closing, I would like to comment that the Commissioner’s approach in
identifying risks associated to IRS business operations and his attempt to
encourage IRS personnel to embrace cultural changes that, in the past,
detracted from the agency’s ability to provide effective customer service, are
extremely noteworthy. During the past four years, the IRS has made
considerable progress in the implementation of some of the taxpayer rights
provisions. As a result, taxpayer rights have been addressed and better
protected, and IRS employees and stakeholders are engaged in addressing
critical tax administration issues. The IRS is now entering a very challenging
period. Much of the IRS’ progress, credibility and unwavering march toward
reform is attributed to the leadership of the Commissioner, whose term will expire
in November. It is particularly essential that his replacement continue his legacy
and possess outstanding qualifications as a change manager and reformer. The
IRS needs to continue to focus its limited resources on making long-term
improvements that ultimately affect the American taxpaying public.




                                        13
